           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

   COMPASSIONATE ALLOWANCE
          INITIATIVE

     August 2010   A-01-10-21080




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      August 6, 2010                                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Compassionate Allowance Initiative (A-01-10-21080)


           OBJECTIVE
           The objective of our review was to assess the Social Security Administration’s (SSA)
           efforts to expedite disability decisions under its Compassionate Allowance (CAL)
           initiative.

           BACKGROUND

           In October 2008, SSA implemented the CAL initiative to expedite the processing of
           disability claims for applicants whose medical conditions are so severe that their
                                                                  1
           conditions clearly meet SSA’s definition of disability. The initiative allows SSA to
           electronically target and make speedy decisions for the most obviously disabled
           individuals. 2

           SSA’s systems were originally designed to automatically identify disability claims for
           CAL if the claimant alleged 1 of the 50 conditions—25 rare diseases and 25 cancers—
           identified as CAL conditions. 3 The initial list of CAL conditions was developed as a
           result of information received at public outreach hearings as well as comments from the
           public, SSA and disability determination services (DDS) personnel, and medical and
           scientific experts. 4 (See Appendix B for a list of CAL conditions in effect when we

           1
            SSA provides Disability Insurance (DI) and Supplemental Security Income (SSI) benefit payments to
           eligible individuals under Titles II and XVI of the Social Security Act §§ 201 et seq. and 1601 et seq.,
           42 U.S.C. §§ 401 et seq. and 1381 et seq.
           2
               For more details on the CAL initiative, see www.socialsecurity.gov/compassionateallowances.
           3
            The DDSs and the Disability Quality Branch have the capability to manually add cases to CAL
           processing if an alleged or existing condition that would allow CAL processing is identified.
           4
             DDSs are generally State-run agencies that make disability determinations for SSA, using the Agency’s
           regulations, policies, and procedures. The Social Security Act §§ 221 (a)(2) and 1633 (a),
           42 U.S.C. §§ 421 (a)(2) and 1383b (a). (See also 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.)
Page 2 – The Commissioner

selected our audit population.) Beginning March 1, 2010, SSA expanded the list of CAL
conditions to include 38 more—for a total of 88 conditions.

According to SSA’s policy, cases selected under the CAL initiative receive expedited
processing within the context of the existing disability determination process. While the
DDSs assess medical evidence to determine whether the claimant is disabled under the
Social Security Act, SSA field office staff assesses the non-medical factors of eligibility,
such as evaluating work activity or developing proof of age. If a claim is selected for
CAL processing, the SSA field office is required to complete all necessary non-medical
                           5
development immediately.

The CAL initiative is similar to the Quick Disability Determination (QDD) process. 6 CAL
and QDD are linked under the fast-tracked Agency Strategic Plan and Agency
Performance goals. Both programs use a predictive model to electronically select
claims, but criteria for CAL are simpler than the criteria for QDD. Additionally, cases
with a terminal illness (TERI) indicator must be handled in an expeditious manner
                             7
because of their sensitivity. These cases are identified by SSA or DDS staff and
flagged in the Agency’s records. See Appendix E for more information on the predictive
model.

To perform this review, we obtained a file of 41,524 initial disability claims selected for
CAL processing between October 2008 and September 2009. We analyzed disability
determination records, benefit records, and electronic disability folder information for a
sample of 275 of these claims. Additionally, we obtained a file of 27,044 disability
claims not selected for CAL processing between October 2008 and September 2009
that were approved because of 1 of the top 10 diagnosis codes under which CAL cases
were allowed in our sample. We analyzed electronic disability folder information for a
sample of 50 cases from each of the 10 diagnosis codes. (See Appendix C for
additional information on our scope and methodology.)

RESULTS OF REVIEW
We found that SSA generally expedited claims selected for CAL processing. SSA
processed most cases selected for CAL processing in fewer days than the national
average processing time. However, we found that not all disability claims with alleged
CAL conditions were selected for CAL processing. As a best practice, SSA continually
monitors the CAL predictive model and makes enhancements when necessary.
5
    SSA, Program Operations Manual System (POMS) DI 11010.025 G.
6
  The QDD process—implemented nation-wide in February 2008—electronically identifies disability cases
in which there is a high probability that the claimant is disabled, evidence of the claimant’s allegation(s) is
expected to be easily and quickly verified, and the case can be processed quickly by the DDS. The
recommended time frame for processing QDD cases in the DDS is 20 days or fewer. SSA, POMS,
DI 23022.010 A and B.
7
 SSA, POMS, DI 23020.045 A. TERI cases may be identified by the teleservice center, field office, or
DDS.
Page 3 – The Commissioner

SAMPLE RESULTS FOR CASES CODED AS CAL

In our sample of 275 cases with a CAL indicator, we found that SSA’s systems and
SSA and DDS staff appropriately identified 271 cases. 8 Of the 275 sample cases,
262 cases remained in CAL processing, while 13 cases were removed from CAL
processing. The Agency processed these 262 sample cases at the initial level in an
average of 47 days. SSA’s national average processing time was 101 days in Fiscal
Year 2009; therefore, CAL cases were processed in less time than the national
average. 9 Chart 1 (below) shows the average CAL processing time 10 for initial disability
claims by component. 11




8
 We found that four cases were incorrectly identified because the predictive model identified key words
out of context.
9
 SSA, Fiscal Year 2009 Performance and Accountability Report, p. 54, November 2009. SSA’s target
was to process disability claims in 129 days. The QDD and CAL initiatives contributed to the ability to
meet and exceed this target.
10
   The earliest point at which a case can be identified as CAL is when it is transferred to the DDS. SSA
field office staff cannot identify CAL cases. It took SSA 47 days, on average, to process these claims from
the date of application to the date the claim was completed—either the date paid, date of denial, or if the
claimant was allowed during the waiting period or deceased before payment was due, the date the claim
was processed. Of the 275 sample cases, 125 were allowed during the waiting period and 44 were
deceased before payment was due. The Social Security Act indicates, in part, that, subject to certain
exceptions, a DI beneficiary is entitled to receive payments after serving a waiting period of 5 consecutive
calendar months throughout which he or she has been under a disability (that is, 5 full months after the
date SSA established as the onset of the disability). The Social Security Act §§ 223(a)(1)(E) and (c)(2),
42 U.S.C. §§ 423(a)(1)(E) and (c)(2).
11
   The Disability Quality Branch reviews half of all allowances, selected by a predictive model, as well as
70 allowances and 70 denials per DDS per quarter. This ensures statistically valid findings for all DDSs
irrespective of size.
Page 4 – The Commissioner

In our 275 sample cases selected for CAL processing,

     •    256 (93 percent) were allowed                         Chart 2: Results of Review
                                                           275 Sample Claims Selected for CAL
          for disability benefits at the                                Processing
          initial level 12 and
                                                 Allowed
     •    19 (7 percent) were not                (93%)

          allowed for disability benefits
          at the initial level.
                                                                                         Not Allowed
                                                                                         (7%)
Table 1 shows the breakout of the
275 sample cases by SSA
program—DI and/or SSI–and by
Region. (See Appendix D for a breakout by State.)

         Table 1: Summary of Sample CAL Cases by SSA Program and Region
                                                                              Both DI and
                                                                                                        Total
                            DI Only                 SSI Only                      SSI
         Region                                                                                          by
                                     Not                        Not                       Not          Region
                        Allowed   Allowed       Allowed      Allowed        Allowed    Allowed
 1   Boston                13         0             1            2              1          0             17
 2   New York              12         1             1            0              3          0             17
 3   Philadelphia          20         1             4            0              0          1             26
 4   Atlanta               39         3             9            1              9          0             61
 5   Chicago               33         4             3            0             10          1             51
 6   Dallas                22         0             7            1              5          1             36
 7   Kansas City           12         0             2            0              3          0             17
 8   Denver                 7         0             0            0              0          0              7
 9   San Francisco         17         2             5            0              5          0             29
10   Seattle                9         1             3            0              1          0             14

         TOTAL            184        12           35            4             37           3            275

               Of the 275 cases selected for CAL processing, 256 (93 percent) were
Claims         initially allowed for disability benefits. The average processing time for
Allowed        all allowances was 15 days, ranging from 1 to 139 days from the date
               the claim was received until the medical determination was completed
by the DDS or affirmed by a Federal quality reviewer.




12
  One of these cases did not receive a determination because it was not a valid claim. This claim was
sent to a DDS, but a medical decision was not necessary because the individual was already receiving
disability and Medicare benefits on a prior claim.
Page 5 – The Commissioner

We sorted the sample claims by diagnosis code and identified the 10 most common
diagnoses. Of the 256 allowances in our sample, we found most (195 claimants) had
1 of 10 diagnosis codes (as shown in Table 2).

                      Table 2: Primary Diagnoses of Allowed Cases
                                                             Number of
                         Diagnosis                            Cases               Percent**
      Lung Cancer                                                   49               19.1
      Breast Cancer                                                 26               10.2
      Pancreatic Cancer                                             25                9.8
      Colon Cancer                                                  22                8.6
      Liver Cancer                                                  20                7.8
      Leukemia                                                      14                5.5
      Esophageal Cancer                                             13                5.1
      Brain Cancer                                                   9                3.5
      Kidney Cancer                                                  9                3.5
      Anterior Horn Cell Disease (including
      Amyotrophic Lateral Sclerosis, or ALS)                        8                 3.1
      Total                                                       195                76.2
           **The percent is based on the 256 allowed claims in our sample.

For example, a woman filed for DI benefits on June 3, 2009 because of lung cancer.
She provided medical evidence with her application, and the DDS was able to make a
determination the following day. 13 After SSA’s Disability Quality Branch (DQB)
reviewed the case and SSA processed the claim, she received her first check on
June 9, 2009—6 days after she contacted SSA to file for disability benefits.

                    Of the 275 cases selected for CAL processing, 19 (7 percent) were
Claims Not          not allowed for disability benefits. The average processing time for
Allowed             all claims not allowed was 75 days, ranging from 16 to 218 days
                    from the date the DDS received the claim until the medical
determination was completed by the DDS or affirmed by a Federal quality review.
Although only 7 percent of cases selected for CAL were not medically allowed, we
analyzed these 19 cases further since one of the factors considered when selecting a
case for CAL processing is that the applicant’s medical conditions are so severe that his
or her condition clearly meets SSA’s definition of disability. Table 3 summarizes why
these 19 claimants were not allowed benefits.




13
 Of our sample of 275 cases, 30 claimants provided medical evidence with their applications, and the
DDS was able to make a determination based solely on the medical evidence provided.
Page 6 – The Commissioner

                  Table 3: Reasons CAL Cases Were Not Allowed
            Able to perform past work                         4
            Able to perform work other than past occupation   5
            Impairment not expected to last 12 months         2
            Impairment not severe                             6
            Insufficient evidence                             1
            Returned to work                                  1
            Total                                                    19

Based on our review of these cases, it appeared 17 of these 19 claims were
appropriately selected for CAL processing, based on information the claimants initially
provided SSA. The remaining two cases were incorrectly identified because the
predictive model identified key words out of context. For example, in one of the two
cases, the claimant alleged liver disease and cervical cancer, but the system mistakenly
identified the CAL condition as liver cancer. Additionally, 9 of these 19 claims were
removed from CAL processing before the determination was made.

For example, a woman applied for both DI and SSI benefits on June 2, 2009 because
of Stage IV Colon Cancer. The DDS denied her claim on September 29, 2009
because, although she had cancer, her condition was not expected to remain severe
enough to keep her from working for 12 months in a row. She filed a reconsideration
claim on November 12, 2009 and was approved for benefits on December 1, 2009.

CAL Cases with        Of the 275 cases selected for CAL processing, 206 cases
Other Reasons         (75 percent) were also selected for another type of expedited
for Expedited         processing. Since these 206 cases were selected for another type
Processing            of expedited processing, they would have been expedited whether
                      or not they were selected for CAL processing. SSA has separate
sets of policies and procedures for adjudicating each type of expedited processing
initiative. Of the 206 cases

   •   94 cases were also selected for QDD processing, and a determination was made
       in an average of 11 days;
   •   28 cases were also selected for TERI processing, and a determination was
       made in an average of 28 days; and
   •   84 cases were also selected for both QDD and TERI processing and a
       determination was made in an average of 9 days.

                Cases may be removed from CAL processing if the medical
Removal from
                evidence does not confirm the CAL condition or if the system
CAL
                mistakenly identified the condition as CAL. Of our 275 sample
                cases, 13 were removed from CAL processing. Most of these cases
were removed because the claimant did not actually have the alleged medical
Page 7 – The Commissioner

condition. Additionally, it appeared that four cases should have been removed from
CAL processing but were not. Three of these cases should have been removed
because the claimant did not actually have the CAL condition alleged and one did not
allege a CAL condition.

For example, in one case, a man from Massachusetts applied for SSI payments. He
alleged pancreatic cancer as his disabling condition and his claim was selected for CAL
processing. The DDS denied his claim, and the medical evidence showed that he did
not have pancreatic cancer but had pancreatitis. This claim should have been removed
from CAL processing so further appeals would not be expedited.

CAL Indicator         A CAL indicator is automatically added to the disability folder if the
                      predictive model determines the case qualifies for CAL processing.
Manually Added
                      Also, DDS and DQB have the capability to manually add cases to
                      CAL processing if an alleged or existing condition that would allow
CAL processing is identified. Of our 275 sample cases, 10 were not automatically
selected for CAL processing. In these 10 cases, a CAL indicator was manually added
on average 20 days after the claim was sent to the DDS, ranging from 4 to 38 days.
Additionally, these claims were processed in an average of 23 days from the date the
DDS received the claim until the medical determination was completed by the DDS or
affirmed by a Federal quality review.

For example, a man filed for disability benefits in May 2009. He alleged lung and bone
cancer as his disabling conditions. This claim was not automatically selected for CAL
processing, but a CAL indicator was added when the claim was affirmed by a Federal
quality review—37 days after the DDS received the claim.

SAMPLE RESULTS FOR CASES NOT IDENTIFIED FOR CAL PROCESSING

We reviewed a sample of 500 cases that
were allowed and not processed as CAL,                   Chart 3: Results of Review
but they had a diagnosis code that                  500 Sample Claims Not Selected for
matched 1 of the top 10 diagnosis codes                       CAL Processing
of CAL cases in our sample. With SSA’s
assistance, we determined                      Did Not Provide
                                                                                    Should Have
                                              Enough Detail for
                                               Automatic CAL                         Been CAL
   •   303 (60 percent) appeared to           Designation (60%)                        (8%)

       have a CAL condition but did not
       provide enough detail for SSA’s                                                 Not a CAL
       systems to automatically identify                                               Case (9%)

       them as CAL;
                                                        Applied Before the   Developed CAL
                                                         Predictive Model    Condition Later
                                                       was Improved (12%)        (11%)
Page 8 – The Commissioner

     •   60 (12 percent) had a CAL condition but applied before the predictive model was
         improved; 14
     •   54 (11 percent) were diagnosed with a CAL condition after the date of
         application;
     •   45 (9 percent) did not have a CAL condition or applied before the implementation
         of the CAL initiative; and
     •   38 (8 percent) should have been identified as CAL.

Did Not Provide      Of the 500 sample cases not coded as CAL, 303 had a CAL
Enough Detail for    condition but did not provide enough detail or correct spelling for
Automatic            SSA’s systems to automatically identify the cases as CAL.
Designation          Therefore, it is reasonable that these cases were not automatically
                     selected for CAL processing. However, DDS staff could have
recognized that a CAL condition existed and manually selected the cases for CAL
processing. The average processing time for these cases was 36 days, ranging from
1 to 247 days from the date the claim was received until the medical determination was
completed by the DDS or affirmed by a Federal quality review. Additionally, 50 of these
cases were coded as QDD cases, 76 were coded as TERI cases, and 37 were coded
as both QDD and TERI cases.

For example, a 45-year-old woman applied for disability benefits on October 31, 2008,
and her claim was sent to the DDS on November 3, 2008. She alleged cancer but did
not specify what type of cancer even though she was diagnosed with stage 4 urethral
cancer in October 2008. Because the claimant only alleged “cancer,” the predictive
model did not select this case for CAL processing. The DDS allowed her claim in
March 2009—123 days after the DDS received the claim. Had the SSA employee
handling this case asked for the specific diagnosis and entered it into the computer
system, this claim would have been selected for CAL processing and expedited. This
case could have been manually selected for CAL processing.

Should Have     Of the 500 sample cases not coded as CAL, 38 cases appeared to
Been CAL        meet CAL criteria. The average processing time for these cases was
                28 days, ranging from 1 to 95 days from the date the DDS received
                the claim until the medical determination was completed by the DDS or
affirmed by a Federal quality review. Additionally, 5 of these cases were coded as QDD
cases, 10 were coded as TERI cases, and 5 were coded as both QDD and TERI cases.

By not identifying claims as CAL, SSA may not have expedited claims that qualified
under CAL criteria. For example, a 52-year-old woman applied for disability benefits on
August 19, 2009 and her claim was sent to the DDS on September 3, 2009. She
alleged “liver and bone cancer,” but her claim was not selected for CAL processing.


14
  The CAL predictive model was updated in March, May, and August 2009 to correct problems and
identify more CAL terms and misspellings.
Page 9 – The Commissioner

The DDS allowed her claim on October 1, 2009—29 days after receiving the claim.
This case may have been expedited if it had been selected for CAL processing.

Developed CAL Of the 500 sample cases not coded as CAL, 54 were diagnosed with
Condition Later a CAL condition after the date of application, and therefore were not
                  automatically selected for CAL processing. The average processing
                  time for these cases was 81 days, ranging from 2 to 192 days from
the date the claim was received until the medical determination was completed by the
DDS or affirmed by a Federal quality review. The average processing time from the
date SSA became aware of the CAL condition was 22 days. Additionally, seven of
these cases were coded as TERI cases.

For example, a 61-year-old man applied for disability benefits in January 2009. At that
time, he alleged a crushed disc and pinched nerves in his back as his disabling
condition. In April 2009, he was diagnosed with lung cancer, and the DDS approved his
claim 5 days after becoming aware of his condition.

SSA’s Efforts       The Commissioner of SSA has held five CAL public outreach
to Enhance          hearings to obtain the public’s views about the advisability and
CAL                 possible methods of identifying and implementing new CAL
                    conditions. The hearings were on rare diseases, cancers, traumatic
brain injury and stroke, early-onset Alzheimer’s disease and related dementias, and
schizophrenia.

Additionally, as a best practice, SSA continually monitors the CAL predictive model and
makes enhancements when necessary. For example, the Agency identified some
issues and made systems enhancements in March, May, and August 2009.

CONCLUSION AND RECOMMENDATIONS
Generally, we found SSA’s efforts to expedite disability decisions under its CAL
initiative were successful. SSA processed cases identified as CAL in an average of
47 days—faster than the national average of 101 days in Fiscal Year 2009. However,
many of these claims would have been expedited even if not selected under CAL, since
they were also selected under other expedited procedures. Also, the Agency did not
identify all cases that qualified for CAL processing.

We recommend that SSA

1. Continue the best practice of reviewing the CAL predictive model periodically and
   identify enhancements, such as a medical spell check program, to ensure it is
   working at its optimal level.

2. Assess whether policies and procedures for adjudicating all claims identified for
   expedited processing should be combined and simplified for the claims adjudication
   process.
Page 10 – The Commissioner


AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix F for the Agency’s comments.




                                          Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Compassionate Allowance Conditions

APPENDIX C – Scope and Methodology

APPENDIX D – Sample Cases by Region and State

APPENDIX E – Predictive Model Software

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
CAL      Compassionate Allowance
C.F.R.   Code of Federal Regulations
DDS      Disability Determination Services
DI       Disability Insurance
DQB      Disability Quality Branch
OIG      Office of the Inspector General
PM       Predictive Model
POMS     Program Operations Manual System
QDD      Quick Disability Determination
SSA      Social Security Administration
SSI      Supplemental Security Income
TERI     Terminal Illness
U.S.C.   United States Code
                                                                                  Appendix B

Compassionate Allowance Conditions
Table B-1 shows the Compassionate Allowance (CAL) condition alleged for each of our
275 sample cases and the average elapsed processing time, which is the number of
days between the date the claim was received by the disability determination services
(DDS) until the date the claim was completed by the DDS or affirmed by a Federal
quality reviewer. 1 Table B-2 shows a list of the remaining CAL conditions. 2


                       Table B-1: Alleged Impairment for 275 Sample Cases
                                                       Number of         Elapsed
                           Diagnosis
                                                          Cases     Processing Time
         Acute Leukemia                                      16           12 days
         Amyotrophic Lateral Sclerosis                       11           16 days
         Astrocytoma                                          1            5 days
         Bladder Cancer                                       1            2 days
         Bone Cancer                                          8            7 days
         Breast Cancer                                       26           28 days
         Esophageal Cancer                                   12            7 days
         Friedreichs Ataxia                                   4           23 days
         Frontotemporal Dementia, Picks Disease               4           41 days
         Gallbladder Cancer                                   4           14 days
         Gliblastoma Multiforme (Brain Tumor)                13           13 days
         Head and Neck Cancers                               10           20 days
         Kidney Cancer                                        7           11 days
         Large Intestine Cancer                              22           22 days
         Liver Cancer                                        35           25 days
         Mantle Cell Lymphoma                                 1         143 days 3
         Non-Small Cell Lung Cancer                          33           12 days
         Ornithine Transcarbamylase Deficiency                1           38 days
         Ovarian Cancer                                       7            9 days
         Pancreatic Cancer                                   31           21 days
         Small Cell Cancer of the Large Intestine,
         Ovary, Prostate, or Uterus                           5           21 days

1
 Of the 275 sample cases, 32 alleged more than one CAL condition, and 7 alleged a CAL condition that
was different from the CAL condition the predictive model selected.
2
    See www.socialsecurity.gov/compassionateallowances for a detailed description of CAL impairments.
3
  SSA stated that this case may have been handled inappropriately. Additionally, the processing time
includes approximately 3 months in which the claim was on medical hold to see how the claimant
responded to treatment.


                                                   B-1
              Table B-1: Alleged Impairment for 275 Sample Cases
                                              Number of        Elapsed
                  Diagnosis
                                                 Cases     Processing Time
Small Cell Lung Cancer                              14           11 days
Small Intestine Cancer                               1            4 days
Stomach Cancer                                       3           15 days
Thyroid Cancer                                       1            4 days
Not a Compassionate Allowance Condition              4           61 days
Total                                             275           19 days

                   Table B-2: CAL Conditions Not in Sample
         Adrenal Cancer
         Alexander Disease
         Anaplastic Adrenal Cancer
         Canavan Disease
         Cerebro Oculo Facio Skeletal Syndrome
         Chronic Myelogenous Leukemia
         Creutzfeldt-Jakob Disease
         Ependymoblastoma
         Farber’s Disease
         Gaucher Disease
         Infantile Neuroaxonal Dystrophy
         Inflammatory Breast Cancer
         Krabbe Disease
         Lesch-Nyhan Syndrome
         Metachromatic Leukodystrophy
         Niemann-Pick Disease
         Osteogensis Imperfecta
         Peritoneal Mesothelioma
         Pleural Mesothelioma
         Pompe Disease
         Rett Syndrome
         Salivary Tumors
         Sandhoff Disease
         Spinal Muscular Atrophy
         Ureter Cancer




                                   B-2
                                                                     Appendix C

Scope and Methodology
To accomplish our objective, we:

 Reviewed applicable sections of the Social Security Act and the Social Security
  Administration’s (SSA) regulations, rules, policies, and procedures.

 Reviewed SSA’s Fiscal Year 2009 Performance and Accountability Report showing
  the average processing time for all initial disability claims.

 Obtained a file of 41,524 claims selected for Compassionate Allowance (CAL)
  processing between October 24, 2008 and September 30, 2009. From this
  population, we selected a sample of 275 claims for detailed review. For each claim,
  we:

    o Reviewed SSA’s systems, including the Disability Determination Services Query,
      Master Beneficiary Record, Supplemental Security Record, and electronic
      disability folder.

    o Determined whether the claim was appropriately selected for CAL processing and
      whether the claim should have remained in CAL processing.

    o Calculated the number of days to complete the medical determination (including
      quality reviews) after the application date.

    o Calculated the number of days to complete all actions to process the claim.

   Obtained a file of 27,044 disability claims not selected for CAL processing between
    October 24, 2008 and September 30, 2009 that were approved with 1 of the top 10
    diagnosis codes under which CAL cases were allowed in our sample. From this
    population, we selected a sample of 50 cases from each of the 10 diagnosis codes
    for detailed review. For each claim, we:

    o Reviewed the electronic disability folder.

    o Determined, with assistance from SSA, whether the case should have been
      selected for CAL processing.

    o Calculated the number of days to complete the medical determination (including
      quality reviews) after the claim was received by the DDS.




                                            C-1
We conducted our audit between January and April 2010 in Boston, Massachusetts.
The entities audited were the Offices of Disability Programs under the Deputy
Commissioner for Retirement and Disability and Disability Determinations under the
Deputy Commissioner for Operations. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                          C-2
                                                                    Appendix D

Sample Cases by Region and State
Tables D-1 through D-10 show the breakout of the 275 sample cases selected for
Compassionate Allowance (CAL) processing by Disability Insurance (DI) and/or
Supplemental Security Income (SSI) program and by Region and State.

             Table D-1: Summary of Sample CAL Cases in Region 1 - Boston
                        DI Only          SSI Only         Both DI and SSI     Total
     State                     Not                 Not                 Not     by
                  Allowed             Allowed             Allowed             State
                            Allowed             Allowed             Allowed
 Connecticut        3           0       0           0       0           0        3
 Maine              2           0       0           0       0           0        2
 Massachusetts      6           0       0           2       0           0        8
 New
                    1             0     0         0         1         0          2
 Hampshire
 Rhode Island       1             0     0         0         0         0          1
 Vermont            0             0     1         0         0         0          1

 TOTAL              13            0     1         2         1         0          17


          Table D-2: Summary of Sample CAL Cases in Region 2 - New York
                        DI Only          SSI Only         Both DI and SSI     Total
     State                     Not                 Not                 Not     by
                  Allowed             Allowed             Allowed             State
                            Allowed             Allowed             Allowed
 New York           8           0       1           0       1           0        10
 New Jersey         3           0       0           0       2           0         5
 Puerto Rico        1           1       0           0       0           0         2

 TOTAL              12            1     1         0         3         0          17




                                        D-1
        Table D-3: Summary of Sample CAL Cases in Region 3 - Philadelphia
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Delaware            1           0       0           0       0           0      1
Maryland            4           0       1           0       0           0      5
Pennsylvania        7           0       2           0       0           0      9
Virginia            5           0       1           0       0           1      7
West Virginia       3           1       0           0       0           0      4

TOTAL              20             1     4         0         0         1        26


            Table D-4: Summary of Sample CAL Cases in Region 4 - Atlanta
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Alabama             5           1       1           0       2           0       9
Florida             9           0       3           1       1           0      14
Georgia            11           0       1           0       3           0      15
Kentucky            0           0       0           0       1           0       1
Mississippi         1           1       1           0       1           0       4
North Carolina      7           1       2           0       1           0      11
South Carolina      4           0       1           0       0           0       5
Tennessee           2           0       0           0       0           0       2

TOTAL              39             3     9         1         9         0        61


            Table D-5: Summary of Sample CAL Cases in Region 5 - Chicago
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Illinois            5           0       0           0       2           0        7
Indiana             6           0       0           0       0           0        6
Michigan            8           3       0           0       4           0       15
Minnesota           5           0       2           0       0           0        7
Ohio                3           1       1           0       2           1        8
Wisconsin           6           0       0           0       2           0        8

TOTAL              33             4     3         0         10        1         51




                                        D-2
             Table D-6: Summary of Sample CAL Cases in Region 6 - Dallas
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Arkansas             1          0       0           0       1           0       2
Louisiana            2          0       0           0       1           0       3
New Mexico           0          0       0           0       0           0       0
Oklahoma             2          0       1           1       1           0       5
Texas               17          0       6           0       2           1      26

TOTAL               22            0     7         1         5         1        36


        Table D-7: Summary of Sample CAL Cases in Region 7 - Kansas City
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Iowa                4           0       0           0       0           0      4
Kansas              2           0       2           0       1           0      5
Missouri            5           0       0           0       2           0      7
Nebraska            1           0       0           0       0           0      1

TOTAL               12            0     2         0         3         0        17


            Table D-8: Summary of Sample CAL Cases in Region 8 - Denver
                        DI Only          SSI Only         Both DI and SSI     Total
    State                      Not                 Not                 Not     by
                 Allowed              Allowed             Allowed             State
                            Allowed             Allowed             Allowed
Colorado            2           0       0           0       0           0      2
Montana             1           0       0           0       0           0      1
North Dakota        0           0       0           0       0           0      0
South Dakota        0           0       0           0       0           0      0
Utah                2           0       0           0       0           0      2
Wyoming             2           0       0           0       0           0      2

TOTAL               7             0     0         0         0         0        7




                                        D-3
        Table D-9: Summary of Sample CAL Cases in Region 9 - San Francisco
                          DI Only          SSI Only         Both DI and SSI     Total
     State                       Not                 Not                 Not     by
                   Allowed              Allowed             Allowed             State
                              Allowed             Allowed             Allowed
Arizona               1           0       0           0       1           0       2
California           14           1       5           0       3           0      23
Hawaii                2           0       0           0       1           0       3
Nevada                0           1       0           0       0           0       1

TOTAL                17             2     5         0         5         0        29


             Table D-10: Summary of Sample CAL Cases in Region 10 - Seattle
                          DI Only          SSI Only         Both DI and SSI     Total
     State                       Not                 Not                 Not     by
                   Allowed              Allowed             Allowed             State
                              Allowed             Allowed             Allowed
Alaska                0           0       0           0       0           0      0
Idaho                 1           0       0           0       0           0      1
Oregon                2           1       2           0       0           0      5
Washington            6           0       1           0       1           0      8

TOTAL                 9             1     3         0         1         0        14




                                          D-4
                                                                       Appendix E

Predictive Model Software
The Social Security Administration (SSA) provided the following information, which
describes the predictive model (PM) used to select Compassionate Allowance (CAL)
and Quick Disability Determination (QDD) cases.

      The PM software was originally designed by International Business
      Machines Corporation for the QDD process. It is a statistical modeling
      program that generates a score to identify initial cases that have a high
      degree of probability that the claimant is disabled, evidence of the
      claimant’s allegations can be easily and quickly obtained, and the case
      can be processed quickly in the Disability Determination Services (DDS).

      The CAL initiative leveraged the PM software for a different purpose.
      Each CAL condition (for example acute leukemia) was given a unique
      identification number. The conditions and their short descriptors—
      including alternative names and abbreviations—are contained in two
      global reference tables. These tables work with the PM to support its
      ability to appropriately identify cases by the named condition and allow
      SSA to facilitate rapid changes to improve the accuracy of the PM. The
      CAL PM uses both tables to scan and compare what is entered for
      allegations in SSA’s disability case processing system.

      Cases determined to be CAL can also meet the criteria for QDD and
      would be designated both QDD and CAL. Also, cases can be manually
      added as CAL at all adjudicative levels. CAL cases receive priority
      processing at all levels of adjudication.

      The PM software enables automated identification of both QDD and CAL
      cases at the moment the initial disability application is transmitted from the
      field office to the DDS for a medical determination. The CAL initiative
      relies not only on the electronic process, but also on the experience of
      adjudicators, to identify cases for expedited adjudication.
                  Appendix F

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      July 28, 2010                                                            Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor
            to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Compassionate Allowance Initiative”
           (A-01-10-21080)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment




                                                           F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“COMPASSIONATE ALLOWANCE INITIATIVE” (A-01-10-21080)

We appreciate that you recognize our efforts to expedite processing of disability claims under the
compassionate allowance (CAL) initiative. We also appreciated your cooperation during the
audit.

You present an accurate description of the CAL initiative.   We offer the following responses to
your recommendations.

Recommendation 1

Continue the best practice of reviewing the CAL predictive model periodically and identify
enhancements, such as a medical spell check program, to ensure it is working at its optimal level.

Comment

We agree and will review the CAL predictive model periodically and improve it if necessary to
make sure it operates at an optimal level.

Recommendation 2

Assess whether policies and procedures for adjudicating all claims identified for expedited
processing should be combined and simplified for the claims adjudication process.

Comment

We agree and will assess whether we can combine or simplify policies and procedures for
expedited claims processing to enhance further the claims adjudication process.




                                                F-2
                                                                    Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   Phillip Hanvy, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Auditor

   Kevin Joyce, IT Specialist

   Katie Toli, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-10-21080.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
